OFFICE OF INSPECTOR GENERAL


AUDIT OF SCOPES OF WORK
FOR FIELD SUPPORT TASK
ORDERS ISSUED UNDER
USAID/WASHINGTON
INDEFINITE QUANTITY
CONTRACTS
AUDIT REPORT NO. 9-000-06-008-P
MAY 17, 2006




WASHINGTON, DC 

Office of Inspector General


May 17, 2006


MEMORANDUM

TO:            M/OAA/OD Director, Michael F. Walsh

FROM:          IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:       Audit of Scopes of Work for Field Support Task Orders Issued Under
               USAID/Washington Indefinite Quantity Contracts (Report No. 9-000-06-008-P)


This memorandum transmits our final report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included your comments in their
entirety (without attachments) in Appendix II.

This report includes one recommendation requiring that USAID develop and issue policies and
procedures to govern the purpose, content, and use of field support task orders issued under
indefinite quantity contracts.   In your written comments, you concurred with this
recommendation and described appropriate actions taken to address our concerns.
Accordingly, we determined that final action has been taken on this recommendation upon
issuance of this report.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


     Did the scopes of work for field support task orders 

     issued under USAID/Washington indefinite quantity 

     contracts clearly define the specific goods or 

     services being procured? 


Audit Finding ................................................................................................................... 4 


     Policies and Procedures 

     Need To Be Developed............................................................................................... 5 


Evaluation of Management Comments ......................................................................... 8 


Appendix I – Scope and Methodology .......................................................................... 9 


Appendix II – Management Comments ....................................................................... 11 

SUMMARY OF RESULTS

The Office of Inspector General’s Performance Audits Division conducted this audit at
the request of officials in USAID’s Office of Acquisition and Assistance. The objective of
this audit was to determine whether the scopes of work for field support task orders1
issued under USAID/Washington indefinite quantity contracts clearly defined the specific
goods and services being procured (see page 3).

The scopes of work for the sampled field support task orders issued under
USAID/Washington indefinite quantity contracts did not clearly define the specific goods
and services being procured. For example, the “what,” “when,” “where,” “how many or
how much,” and “how well” in the scopes of work were often either non-specific or
broadly specific. The lack of specificity occurred because the scopes of work were
written to accommodate both bureau and mission requirements, and USAID had not
developed policies and procedures establishing the required level of specificity for these
unique task orders. As a result, USAID could be more vulnerable to contractor
challenges, and be more limited in its ability to ensure reasonable cost estimates and
enforce contractor performance (see page 5).

This report includes one recommendation requiring that USAID develop and issue
policies and procedures to govern the purpose, content, and use of field support task
orders issued under indefinite quantity contracts (see page 7). Management concurred
with this recommendation and described appropriate actions taken to address our
concerns. Accordingly, we determined that final action has been taken on this
recommendation upon issuance of this report (see page 8).

Management comments are included in their entirety (without attachments) in
Appendix II.




1
  For purposes of this report, the term “field support task order” refers to a centrally-managed task
order written to support both USAID/Washington bureaus’ technical leadership activities and
related mission activities. Field support task orders accept mission funding, referred to in this
report as “field support.”


                                                                                                   1
BACKGROUND

The statutory and regulatory framework within which USAID operates helps to guide and
standardize its stewardship of public funds as it carries out its foreign assistance
program. USAID implements this program primarily through the use of contracts, grants,
and cooperative agreements. The Federal Acquisition Regulation provides uniform
policies and procedures for acquisitions by executive agencies of the Federal
government, while USAID’s Acquisition Regulation implements and supplements the
Federal Acquisition Regulation—together, these regulations govern USAID’s contracting
process. In fiscal year 2005, USAID’s Office of Acquisition and Assistance reported that
it had completed nearly 1,500 procurement actions, totaling over $4.5 billion.2

For certain acquisitions, USAID uses a flexible variation of the contract mechanism,
called an indefinite quantity contract (IQC). An IQC may be used to procure an unfixed
amount of services within stated limits over a set period of time; as needs become
defined, the contractor meets them using task orders. The Federal Acquisition
Regulation allows IQCs to be used when exact times and/or quantities of future
deliveries are unknown at the time of contract award and a recurring need is anticipated.
In this audit, we looked at a unique type of IQC task order—“field support task orders”
(see footnote no. 1).

USAID missions obtain a significant amount of their required technical services through
USAID/Washington’s field support task order system. Under this system, a USAID “pillar”
or technical bureau competes and awards an IQC, which includes a very general scope of
work describing the type of work to be done to meet both bureau technical leadership
requirements and mission-based project requirements. If the IQC is a multiple-award
instrument, USAID then competes and awards a field support task order among the IQC
awardees; the task order does not need to be competed in the case of a single-award
IQC.

As mission requirements are identified, missions either access the centrally-managed task
order or issue their own task order against the IQC.3 Accessing the centrally-managed
task order relieves missions of the burden of procuring and administering these
instruments themselves. Issuing their own task order requires missions to compete the
task order among the IQC awardees—if the IQC is a multiple-award contract—entailing a
significant use of mission resources.




2
    These figures are unaudited.
3
 The scope of this audit was limited to centrally-managed task orders and did not include
mission-issued task orders. See page 9 for further discussion.



                                                                                       2
AUDIT OBJECTIVE
This audit was conducted at the request of officials in USAID’s Office of Acquisition and
Assistance to answer the following question:

•	 Did the scopes of work for field support task orders issued under USAID/Washington
   indefinite quantity contracts clearly define the specific goods or services being procured?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        3
AUDIT FINDING 

The scopes of work for the five sampled field support task orders issued under
USAID/Washington indefinite quantity contracts (IQC) did not clearly define the specific
goods and services being procured. These five field support task orders, with an
aggregate ceiling of over $170 million, were issued by USAID’s three pillar or technical
bureaus—Global Health; Economic Growth, Agriculture and Trade; and Democracy,
Conflict and Humanitarian Assistance.

Global Health Bureau officials reported that the field support task order system—used in
all three pillar bureaus, but most notably in the Global Health Bureau4—provided
significant benefits. For example, they reported that the system provided:

    •	 A combination of core funds and mission funds in a single task order, allowing the
       development of new, innovative approaches using core funds, and field testing or
       “scale-up” of these approaches using mission funds.

    •	 A programming alternative to over-whelmed missions and to missions who cannot
       conduct their own procurements—allowing missions to access “state-of-the-art”
       services by “buying-in” to a centrally-managed task order.

    •	 An opportunity for consolidated results reporting for similar projects at multiple
       missions, including work conducted under both the centrally-managed field support
       task order and mission-issued task orders.

However, the “what,” “when,” “where,” “how many or how much,” and “how well” in the
five sampled field support task orders were often either non-specific or broadly specific.
Since unclear scopes of work may be challenged before contracting boards, the U.S.
Comptroller General, and in court, USAID needs policies and procedures to govern the
purpose, content, and use of these unique task orders, as discussed in the following
section.




4
 Historically, the Global Health Bureau has had a large number of centrally-managed, multi-year
contracts, which were incrementally funded with both Bureau and mission funds.



                                                                                         4
Policies and Procedures
Need To Be Developed

     Summary: The Federal Acquisition Regulation requires that task orders clearly
     describe all services to be performed so the full cost or price for the performance of
     the work can be established when the order is placed. However, the scopes of
     work for the five sampled field support task orders issued under USAID/Washington
     IQCs did not clearly define the specific services being procured. The lack of
     specificity occurred because the scopes of work were written to accommodate both
     bureau and mission requirements, and USAID had not developed policies and
     procedures establishing the required level of specificity for these unique task
     orders. As a result, USAID could be more vulnerable to contractor challenges, and
     be more limited in its ability to ensure reasonable cost estimates and enforce
     contractor performance.

Federal Acquisition Regulation 16.505(a)(2) requires that task orders issued under IQCs
clearly describe all services to be performed so that the full cost or price for the
performance of the work can be established when the task order is placed. Additional
guidance issued by the Office of Federal Procurement Policy5 stated that the task order
statement of work should clearly define the specific services being procured under the
order and should provide the awardee with answers to five basic questions:

      1. What services are to be provided?

      2. When are the services to be provided?

      3. Where are the services to be provided?

      4. How many or how much of the services are to be provided?

      5. How well (the level of quality) must the services be provided?

However, the scopes of work for the sampled field support task orders issued under
USAID/Washington IQCs did not clearly define the specific services being procured to
provide the awardee with answers to the Office of Federal Procurement Policy’s five basic
questions. While four of the five sampled task orders provided broadly specific or non
specific answers, none of the five specifically answered any of the five questions, as
summarized in the table on the next page.




5
    Best Practices for Multiple Award Task and Delivery Order Contracting, dated July 1997.



                                                                                              5
      Table Showing That the Five Sampled Field Support Task Orders Did Not 

               Clearly Define the Specific Services Being Procured 6

       Questions Task
      Order Scopes of
        Work Should                       Broadly
          Answer           Specific       Specific     Non-Specific            Totals
      What?                 None             1              4                    5
      When?                 None             5             None                  5
      Where?                None             1              4                    5
      How many/
      How much?              None           2                 3                  5
      How well?              None          None               5                  5
      TOTALS                 None           9 (36%)          16 (64%)           25 (100%)

For example, the “when” for all five sampled field support task orders was broadly specific
because each included the task order’s effective date—typically the date the task order
was signed—and each included an estimated completion date—typically five years from
the effective date—the maximum allowable period for a task order. However, none of the
task orders included the period of performance for a discrete activity to be performed
under the task order.

Another example involved the “where” question. Four of the five sampled task orders
were non-specific as to location, one was broadly specific, and none were specific. The
one broadly specific task order stated that activities would primarily be conducted within a
specified group of countries, for example, Tier 1 and Tier 2 countries included in USAID’s
Tuberculosis Strategy; however, the task order also stated that activities may be
requested in additional countries. The four non-specific task orders included language
such as, “…one mission in each of the four USAID regions is targeted for visits…” and
listed a possible country for each region.

The lack of specificity occurred because the scopes of work were written to include both
core-funded technical leadership requirements, as well as a set of expected global
activities for which the location, timing, and specific work to be done were unknown at the
time the IQC and field support task order were issued. Additionally, USAID had not
developed policies and procedures establishing the required level of specificity for these
unique task orders.7 Because policies had not been developed, contracting officers and
technical advisors/cognizant technical officers disagreed as to whether the scopes of work
clearly identified discrete tasks.         In addition, contracting officers and technical
advisors/cognizant technical officers expressed dissatisfaction with the lack of
communication and understanding between OAA and bureau technical staff. For
example, while some contracting officers believed field support task orders should only be

6
 See page 10 for the guidelines used to determine whether the required scope of work elements
were specific, broadly-specific, or non-specific.
7
  In 1997, the Office of Acquisition and Assistance (OAA) issued guidance stating that task order
contracts were the preferred mechanism for accepting field funding for participation in centrally-
managed activities. Additionally, in 2002, OAA issued a policy directive, which standardized
pricing structures and “fair opportunity” ordering procedures under an IQC.



                                                                                            6
used as a last resort or for short-term projects, some missions used this mechanism to
conduct long-term, multi-million dollar programs.

As a result of the lack of specificity in the sampled field support task orders, USAID could
be more vulnerable to contractor challenges and be more limited in its ability to ensure
reasonable cost estimates and enforce contractor performance. For example, several
contracting officers told us that a contractor filed a complaint related to a recently awarded
IQC and field support task order. The contractor reportedly claimed it did not have fair
opportunity because the majority of the IQC ceiling was allocated to field support task
orders rather than to mission-issued task orders. The contractor reportedly threatened to
file a formal protest the next time a similar situation arises. Additionally, because the
scopes of work were written so broadly, realistic cost estimates could not be developed
when the field support task order was issued, and contracting officers did not conduct cost
evaluations when missions later “bought-in” to these task orders. Therefore, USAID could
not ensure that it was receiving the best value possible. Furthermore, because the scopes
of work were written so broadly, technical direction letters often provided specifics (such
as details on the “what,” “where,” and “when”) normally included in a task order, thus
limiting USAID’s ability to enforce contractor performance.

As a result of our audit, OAA formed a task force8 to review USAID’s current field
support task order process and started developing related guidance. However, USAID
needs to formally complete the process of developing this guidance and issue policies to
govern the purpose, content, and use of field support task orders. Accordingly, we are
making the following recommendation:

    Recommendation No. 1: We recommend that the Director of the Office of
    Acquisition and Assistance, in collaboration with the Office of the General
    Counsel, develop and issue policies and procedures to govern the purpose,
    content, and use of field support task orders issued under USAID/Washington
    indefinite quantity contracts.




8
  To ensure that the task force struck a balance between contracting requirements and technical
leadership/program requirements, the task force consisted of representatives from OAA, USAID’s
Office of the General Counsel, and technical officers from the Global Health Bureau and the
Bureau for Economic Growth, Agriculture and Trade.


                                                                                         7
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID’s Office of Acquisition and Assistance (OAA)
concurred with Recommendation No. 1 and described actions taken to address our
concerns. In collaboration with the Office of the General Counsel, the Global Health
Bureau, the Bureau for Economic Growth, Agriculture and Trade, and other relevant
parties, OAA developed an indefinite quantity contract task order statement of work
compliance checklist, supplemented by a document describing various contracting
mechanisms that can be used to accept field support. Both documents were issued as
“Additional Help Documents” to Automated Directives System (ADS) 302, USAID Direct
Contracting, through USAID’s General Notice system on May 11, 2006 and will be
included in ADS 302, as described. Accordingly, we determined that final action has
been taken on Recommendation No. 1 as of the date of final report issuance.

Management comments are included in their entirety (without attachments) in
Appendix II.




                                                                                  8
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General's Performance Audits Division in Washington, D.C.
conducted this audit in accordance with generally accepted government auditing
standards. The purpose of this audit was to determine whether the scopes of work for
field support task orders issued under USAID/Washington indefinite quantity contracts
(IQC) clearly defined the specific goods or services being procured.

The audit’s scope was limited to centrally-managed field support task orders issued
under USAID/Washington IQCs and did not include mission-issued task orders under
these same IQCs. Because USAID’s procurement system did not separately track IQCs
containing field support task orders, we could not determine the total number or dollar
amount of procurements under this mechanism. Although we could not determine the
total audit universe, the estimated cost of the five field support task orders we reviewed
had an aggregate ceiling of over $170 million. Of the five task orders sampled, three—
with ceilings totaling approximately $165 million—were awarded by the Global Health
Bureau; one task order—with a ceiling of approximately $5 million—was awarded by the
Bureau for Economic Growth, Agriculture and Trade; and the fifth sampled task order—
with a ceiling of approximately $200,000—was awarded by the Bureau for Democracy,
Conflict and Humanitarian Assistance.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to field support task order scopes of work. The internal controls identified
included those related to the role of contracting officers and cognizant technical officers
in developing and issuing task orders. Relevant criteria included the Federal Acquisition
Regulation, the Office of Federal Procurement Policy’s Best Practices for Multiple Award
Task and Delivery Order Contracting, USAID’s Acquisition Regulation, and USAID’s
Office of Acquisition and Assistance internal guidance.

There were no prior audit findings related to our audit objective.

The audit was conducted at USAID/Washington from February 17, 2005 through April
10, 2006.

Methodology
To answer the audit objective, we judgmentally selected a sample of five field support
task orders issued under USAID/Washington indefinite quantity contracts by manually
reviewing IQC files and identifying five IQCs containing field support task orders. We
interviewed contracting officers and current and former cognizant technical officers
associated with the five sampled task orders. Additionally, we interviewed various other
contracting officers and bureau officials with field support task order experience and
interviewed a limited number of contractors.

Additionally, we reviewed the contract files for the five sampled field support task orders
and analyzed the scopes of work to evaluate the level of specificity.



                                                                                         9
We developed the following general guidelines to determine whether scopes of work in
the five sampled task orders clearly defined the specific services being procured:

  Five
Questions
  Task
  Order
Scopes of
  Work
 Should
 Answer9                Specific                   Broadly-Specific                   Non-Specific
What?        Activities or work to be        Activities or work to be        List of illustrative, but not
             performed clearly described     performed described in          finite, activities described
                                             general terms
When?        Period of performance for       Task order includes begin       No dates indicated
             specific work on individual     and end dates for overall
             core/mission activities         task order, typically a five-
             stated within the task order    year period
Where?       Exact locations of the work     Activities restricted to a      Locations unknown at time
             to be performed are             defined and limited list of     task order written, although
             indicated                       likely countries, for           an illustrative list of
                                             example, “tuberculosis          countries and/or regions
                                             high-risk countries,”           may be provided
                                             although specific missions
                                             not yet known
How          Outputs/deliverables/results    Outputs/deliverables/results    Outputs/deliverables/results
many/how     clearly described10             described in general terms,     not included or vague
much?                                        or level-of-effort specified
How well?    Contractor performance          Contractor performance          Performance evaluation
             evaluation criteria clearly     evaluation criteria             criteria not included or
             described                       described in general terms      vague

In addition, to answer the audit objective, we established the following materiality
thresholds related to answering the five questions in the chart above:

     •	 If at least 90 percent of the answers were specific or broadly-specific, the answer
        to the audit objective would be positive.

     •	 If at least 80 percent, but less than 90 percent, of the answers were specific or
        broadly-specific, the answer to the audit objective would be qualified.

     •	 If less than 80 percent of the answers were specific or broadly-specific, the
        answer to the audit objective would be negative.




9
 The Office of Federal Procurement Policy’s Best Practices for Multiple Award Task and Delivery
Order Contracting, dated July 1997.
10
  USAID’s Automated Directives System 202.3.6, Achieving, states that outputs should be
specifically described in contract scopes of work and that outputs are critical to achieving results.



                                                                                                10 

                                                                           APPENDIX II 




MANAGEMENT COMMENTS

May 12, 2006


MEMORANDUM

TO:         Mr. Steven H. Bernstein, Director, IG/A/PA

FROM:       M/OAA/OD, Deputy Director, Lynn Kopala /s/

SUBJECT: Draft Audit Report Entitled “Audit of Scopes of Work for Field Support
         Task Orders Issued Under USAID/Washington Indefinite Quantity
         Contracts (Report No. 9-000-06-00X-P)

The subject draft Audit Report has one Recommendation which is stated below. The
Office of Acquisition and Assistance has taken final action on this recommendation and
based on this action, requests that the Audit Recommendation be closed with issuance
of the Final Audit Report.

Recommendation 1: The Director of the Office of Acquisition and Assistance, in
collaboration with the Office of General Counsel, develop and issue policies and
procedures to govern the purpose, content, and use of field support task orders issued
under USAID/Washington indefinite quantity contracts.

Management Decision: M/OAA concurs with Recommendation No. 1. M/OAA in
collaboration with GC, EGAT, GH, the Ombudsman, and HR (facilitators) developed the
attached field support “Indefinite Quantity Contract (IQC): Task Order Work Statement
Development Checklist” and the “Contract Types to Address Global Technical
Leadership with Field Support and/or Cost-Contributions.” Both deliverables have been
incorporated into ADS 302 as Additional Help Documents (see General Notice dated
May 11, 2006, attached).

The Task Order Checklist
This document provides a step by step itemized FAR and Agency compliance checklist
for Task Order Statements of Work. Its purpose is to create a guide that technical
personnel will follow when drafting Task Order work statements and that Contracting
Officers and Specialist will use for review of the submitted statements.

The Contract Types Document
This Document identifies various contracting vehicles available to execute Field Support
or Cost-Contribution requirements. It explains the advantages and disadvantages for
using each listed vehicle.

Feedback and Future Action
We intend to review and revise these additional help documents as necessary based on
user input and suggestions using the FieldSupportComments@usaid.gov mailbox. This
box will be available through 1 Nov 2006.




                                                                                  11 

Conclusion: Because the actions M/OAA has taken as described above comply with
the recommendation in the draft audit report, we request that the subject Audit
Recommendation be closed with issuance of the report.

Attachments: (a) General Notice dated 5/11/06
             (b) Task Order Check List
             (c) Contract Options Document




                                                                            12
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
